Page 2 − Charles W. Grim, D.D.S., M.H.S.A.
We recommend that IHS ensure that Clinton Hospital’s management establishes a system
to routinely perform credentialing and privileging reviews. The hospital should:

      1. establish controls to complete credentialing and privileging reviews in a
         timely manner, such as a computerized credentialing system to track and
         monitor the status of its practitioners, and

      2. assign staff exclusively to perform the credentialing and privileging
         processes before the practitioners provide patient care.

In its written comments, IHS stated that all recommended corrective actions had been
taken. The IHS comments are included as an appendix to the report.

If you have any questions or comments about this report, please do not hesitate to call
me, or have your staff call Peter J. Koenig, Acting Assistant Inspector General for Grants
and Internal Activities, at (202) 619-3191, or e-mail him at Peter.Koenig@oig.hhs.gov.
Please refer to report number A-06-04-00038 in all correspondence.

Attachment

cc:      Jeanelle Raybon
         Director, Program Integrity and Ethics
         Indian Health Service
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




CREDENTIALING AND PRIVILEGING
 PRACTICES AT CLINTON INDIAN
          HOSPITAL




                     NOVEMBER 2004
                      A-06-04-00038
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. The OEI also oversees State Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising under
the Civil False Claims Act, develops and monitors corporate integrity agreements, develops
compliance program guidances, renders advisory opinions on OIG sanctions to the health
care community, and issues fraud alerts and other industry guidance.
                               EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency within the Department of Health and Human
Services, is the principal Federal health care provider and health advocate for 1.6 million
American Indians and Alaska Natives. This report addresses credentialing and
privileging issues at the Clinton Indian Hospital (Clinton Hospital), located in Clinton,
OK. Clinton Hospital is one of eight hospitals that we reviewed at IHS’s request
following media reports in 2002 questioning medical staff appointments made by IHS-
funded facilities.

Clinton Hospital uses a process to screen and verify applicants for medical staff
membership that is known in the medical community as credentialing and privileging.
The Joint Commission on Accreditation of Healthcare Organizations (Joint Commission),
which has accredited all IHS-operated hospitals, provides standards for and evaluates the
adequacy of credentialing and privileging processes. Credentialing consists of verifying
education, training, and license documents and contacting recent employers to determine
an applicant’s qualifications, competence, and skills. Privileging identifies the scope of a
practitioner’s expertise and what the individual will be authorized to do at a facility.
Failure to meet the Joint Commission standards in these areas could jeopardize a
hospital’s accreditation.

OBJECTIVE

The objective of our audit was to determine whether Clinton Hospital had completed the
credentialing and privileging reviews for its medical practitioners.

SUMMARY OF FINDINGS

Clinton Hospital did not routinely complete required credentialing and privileging
reviews for its practitioners. The credentialing and privileging reviews are generally
required by industry-wide standards and specifically by IHS Circular 95-16.

For the 23 practitioners we reviewed, the hospital did not:

   •   verify the credentials for 7, or 30 percent, to determine their current competence;
       or

   •   ensure that 17, or 74 percent, had current privileges, with lapsed periods ranging
       from 2 days to 34 months.

Clinton Hospital’s management had not ensured that the credentialing and privileging
review processes received the necessary level of priority in terms of management
attention and other resources. As a result, the hospital’s management could not assert its
full assurance that its practitioners had the appropriate qualifications and authorizations
to provide patient care.
                                                i
RECOMMENDATIONS

We recommend that IHS ensure that Clinton Hospital’s management establishes a system
to routinely perform credentialing and privileging reviews. The hospital should:

   1. establish controls to complete credentialing and privileging reviews in a timely
      manner, such as a computerized credentialing system to track and monitor the
      status of its practitioners, and

   2. assign staff exclusively to perform the credentialing and privileging processes
      before the practitioners provide patient care.

AGENCY COMMENTS

In a written response to our draft report, IHS stated that all recommended corrective
actions had been taken. The complete text of IHS’s response is included in the appendix.




                                           ii
                                              TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

     BACKGROUND ...........................................................................................................1
       IHS Request for Office of Inspector General To Examine Credentialing
              and Privileging .............................................................................................1
       IHS Provision of Health Care ..................................................................................1
       The Credentialing and Privileging Process..............................................................1
       Joint Commission on Accreditation of Healthcare Organizations...........................1

     OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
       Objective……………. .............................................................................................2
       Scope........................................................................................................................2
       Methodology ............................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................2

    CREDENTIALING AND PRIVILEGING REVIEWS
       FOR PRACTITIONERS..........................................................................................2
       Requirements for Credentialing and Privilege Granting .........................................3
       Inadequate Credentialing and Privileging Reviews for
               Practitioners .................................................................................................5
       Lack of a System To Ensure That Credentialing and
               Privileging Reviews Were Performed .........................................................6
       Insufficient Assurance That Practitioners Had the Appropriate
               Qualifications and Authorizations To Provide Patient Care........................7

   RECOMMENDATIONS.................................................................................................7

   AGENCY COMMENTS .................................................................................................7

APPENDIX

          IHS COMMENTS ON DRAFT REPORT




                                                                iii
                                   INTRODUCTION

BACKGROUND

IHS Request for Office of Inspector General To Examine Credentialing and
Privileging

Following negative media reports in 2002 about the quality of medical practitioners at
Indian hospitals, IHS requested the Office of Inspector General to review the adequacy of
credentialing and privileging practices at IHS-funded hospitals.

IHS Provision of Health Care

Through its network of 49 hospitals and other smaller facilities, IHS funds health care for
more than 1.6 million Native Americans and Alaska Natives. These facilities are
managed and operated directly by IHS or by tribes under self-governance agreements
with IHS.

Clinton Hospital, which IHS directly operates, is located in Clinton, OK. It logs about
30,000 outpatient visits and 600 admissions annually and covers the entire northwest area
of Oklahoma, serving approximately 7,000 Native Americans, most of whom are
Cheyenne and Arapaho. The hospital provides a wide range of services, including
general medical care, pediatrics, orthopedics, dental care, and ophthalmology.

The Credentialing and Privileging Process

In the health care field, credentialing and privileging are two components of a broader
quality assurance and risk management process that all facilities undertake to ensure
high-quality care. During credentialing, hospital management evaluates and verifies the
training and experience of practitioners to determine their current competence and skills.
During privileging, hospital management determines whether a practitioner is qualified to
perform specific medical functions at a particular facility. A wide range of practitioners
are typically subjected to this process, including physicians, physician assistants, nurses,
and dentists.

Joint Commission on Accreditation of Healthcare Organizations

All IHS hospitals, including Clinton Hospital, have earned Joint Commission
accreditation. IHS Circular No. 97-01 requires all IHS health care facilities to be
accredited and considers the Joint Commission to be the most broadly recognized
accrediting body in health care. To earn and maintain Joint Commission accreditation, an
organization must undergo an onsite survey every 3 years. During the onsite survey, the
Joint Commission assesses compliance with standards that it has developed for a wide
range of health care operations, including those for credentialing and privileging. Failure
to demonstrate satisfactory compliance with Joint Commission standards could result in
accreditation denial, thereby potentially disqualifying a hospital from participating in and


                                             1
receiving payment from the Medicare and Medicaid programs. Clinton Hospital received
renewed Joint Commission accreditation in November 2002.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether Clinton Hospital had completed the
credentialing and privileging reviews for its medical practitioners.

Scope

We selected Clinton Hospital for review because it is one of only two IHS-operated
hospitals still under the Oklahoma City Area Governing Board’s approval authority for
credentialing. We also selected Clinton Hospital based on the results of its Joint
Commission survey review done in November 1999.

To accomplish our objective, we selected 23 practitioners for review to ensure a
representative selection of health disciplines. We made our selections from practitioners
who provided patient care during the period January 2000 through December 2002. At
the time of our review, Clinton Hospital had 35 practitioners who had provided patient
care during the past 3 years (2000 through 2002). We performed our audit work at the
Clinton Hospital in Clinton, OK.

Methodology

To perform our audit, we:

   •    interviewed Clinton Hospital management officials;

   •    reviewed practitioner files to determine whether the hospital verified credentials
        and granted privileges to practitioners in accordance with Joint Commission
        standards and IHS requirements; and

   •    issued a draft report to IHS on September 14, 2004.

We conducted our audit in accordance with generally accepted government auditing
standards.

                      FINDINGS AND RECOMMENDATIONS

CREDENTIALING AND PRIVILEGING REVIEWS FOR PRACTITIONERS

Clinton Hospital did not routinely complete required credentialing and privileging
reviews for its practitioners. The credentialing and privileging reviews are generally



                                             2
required by industry-wide standards and specifically by IHS Circular 95-16. For the 23
practitioners we reviewed, the hospital did not:

   •   verify the credentials for 7, or 30 percent, to determine their current competence;
       or

   •   ensure that 17, or 74 percent, had current privileges, with lapsed periods ranging
       from 2 days to 34 months.

Clinton Hospital’s management had not ensured that the credentialing and privileging
review processes received the necessary level of priority in terms of management
attention and other resources. As a result, the hospital’s management could not assert its
full assurance that its practitioners had the appropriate qualifications and authorizations
to provide patient care.

Requirements for Credentialing and Privilege Granting

Consistent with Joint Commission standards, IHS Circular 95-16 requires hospital
management to follow a standardized process for a credentials review and the granting of
clinical privileges. IHS Circular Appendix 95-16-A requires agency-operated hospitals
such as Clinton Hospital to have a credentialing and privileging process that is separate
and distinct from the employment process and to complete the process before medical
staff members provide patient care.

For credentialing, IHS Circular 95-16, Section 4, requires that “all individuals, who are
eligible for membership on the medical staff, must have a documented, current review of
their medical staff credentials. This includes individuals who provide direct,
independent, and unsupervised patient care services in IHS facilities . . . .”

During the course of a credentials review, an agency-operated hospital may verify a
practitioner’s information by utilizing a variety of sources. The hospital is also
responsible for ensuring that a provider’s credentials are reassessed and recertified on a
regular basis. To illustrate:

   •   License verification should be done at initial appointment or reappointment, and
       the status of all licenses should be verified. Licensure may be verified by
       obtaining a letter or computer printout from the appropriate State licensing board.
       The telephone or the Internet may also be utilized for licensure verification as
       long as the verification is documented.

   •   All practitioners with delineated clinical privileges must participate in continuing
       education, and their participation must be documented. For reappointments, IHS
       requires practitioners to provide evidence of continuing professional education
       obtained outside the IHS facility, and the facility is required to ensure that
       practitioners have documentation of their participation in continuing education
       activities. In addition, to fulfill part of Clinton Hospital’s requirements for


                                             3
       reappointment to the medical staff, hospital bylaws require practitioners to
       complete no less than 15 hours of continuing medical education (CME) during
       each year of employment.

   •   The hospital must query the National Practitioner Data Bank (NPDB) at initial
       appointment and at least every 2 years thereafter for information on practitioners
       under the Health Care Quality Improvement Act of 1986. The query will identify
       any medical malpractice payments, licensure disciplinary actions, and other
       adverse actions reported to the NPDB concerning the practitioner.

For privileging, IHS Circular 95-16, Section 5(D), states that “clinical privileges are
granted after careful review and consideration of an applicant’s credentials . . . [and] . . .
must reflect the training, experience, and qualifications of the applicant as they relate to
the staffing, facilities, and capabilities of the [medical facility].”

IHS’s credentialing and privileging process, as outlined in IHS Circular Appendix 95-16-
A, consists of the following steps:

 Step 1. A practitioner completes applications for medical staff membership and
         clinical privileges. (The practitioner must sign and date both applications.)

 Step 2. After the applications are returned to the medical facility, an appropriate
         person, such as the credentialing coordinator, reviews them for completeness
         and verifies the credentialing information.

 Step 3. The clinical director at the medical facility reviews both applications for
         completeness and determines whether the applicant has requested privileges
         that the facility can support or requires.

 Step 4. The clinical director reviews the applications and any additional information
         with the medical staff executive committee. This committee recommends the
         applications for medical staff membership to be accepted or rejected and
         determines which of the requested clinical privileges should be granted.

 Step 5. The service unit director at the medical facility reviews the appropriateness of
         the recommendations from the medical staff executive committee and sends
         the recommendations to the governing board of the service unit.

 Step 6. The governing board reviews the applications and grants or denies the staff
         membership and/or privileges in writing. (Acceptance at Clinton Hospital is
         signified by the signature and date of the governing board representative.)

IHS Circular Appendix 95-16-A requires the credentialing and privileging process to be
completed before a practitioner’s entry on duty. However, a medical facility may grant
temporary privileges to a new practitioner while he/she is undergoing the credentialing
process. Temporary privileges allow practitioners to provide patient care at a medical


                                               4
facility while their credentials and privileges are verified and approved. Clinton
Hospital’s bylaws allow practitioners to be granted temporary privileges for up to 90
days. However, according to the Joint Commission, temporary privileges may not be
granted to (1) practitioners undergoing reappointment unless an important patient care
need is documented and (2) new practitioners undergoing initial appointment who do not
have primary-source verification of current licensure and competence.

Inadequate Credentialing and Privileging Reviews for Practitioners

Clinton Hospital did not routinely complete required credentialing and privileging
reviews for its practitioners. For the 23 practitioners we reviewed, we found at least 1
lapse in credentialing or privileging reviews for 17, or 74 percent. Many of the 17
practitioners had problems in both areas reviewed. For the 23 practitioners, Clinton
Hospital did not:

   •   verify the credentials for 7, or 30 percent, to determine their current competence;
       or

   •   ensure that 17, or 74 percent, had current privileges, with lapsed periods ranging
       from 2 days to 34 months.

       Credentialing

For the 23 practitioners reviewed, Clinton Hospital did not verify the credentials for 7, or
30 percent, to determine their current competence. Of the seven with credentialing
review lapses, one had lapses in more than one credentialing area. The lapses were as
follows:

   •   Three practitioners did not have a medical license verified prior to providing
       patient care as required by IHS Circular Appendix 95-16-A. Two of the three
       practitioners had a medical license that was not verified at all by hospital officials,
       while the other practitioner provided patient care for more than a year before the
       medical license was verified. We checked the status of the licenses that were not
       verified by Clinton Hospital officials against State licensure board Internet sites
       and did not identify any restrictions or adverse actions.

   •   Three practitioners did not have sufficient CME documentation to support that
       they had met minimum CME requirements in accordance with Clinton Hospital’s
       bylaws.

   •   Two practitioners did not have the NPDB queried by Clinton Hospital officials
       every 2 years after their initial appointment as required by the Health Care
       Quality Improvement Act of 1986.




                                             5
       Privileging

Of the 23 practitioners reviewed, 17, or 74 percent, provided patient care without
privileges for periods ranging from 2 days to 34 months. Of the 17 practitioners, 10
provided patient care without privileges for 6 months or longer, and the hospital granted
temporary privileges to 4 practitioners even though (1) there was no evidence to suggest
that there was an important patient care need and (2) the hospital had not performed
current licensure and NPDB verifications as required by the Joint Commission and
Clinton Hospital bylaws.

Lack of a System To Ensure That Credentialing and Privileging Reviews
Were Performed

Clinton Hospital management had not established a comprehensive system to ensure that
practitioners’ credentialing and privileging reviews were completed. The absence of
controls contributed to the number of practitioners providing patient care without full
credential reviews performed and current privileges granted. Specifically:

   •   The hospital did not have a process to ensure that credentialing and privileging
       reviews were routinely completed and approved in a timely manner by the
       hospital’s medical staff executive committee with the hospital’s governing board
       providing final approval. For seven practitioners who provided patient care
       without privileges, it took Clinton Hospital at least 1 month to more than 27
       months, after the practitioners started providing services, to send the practitioners’
       medical staff membership and privileges applications to the hospital’s governing
       board for approval.

       The governing board was also responsible for the hospital’s untimely
       credentialing and privileging reviews. Of the aforementioned seven practitioners
       who provided patient care without privileges, it took the governing board at least
       2 months to more than 6 months to approve or deny the practitioners’ medical
       staff membership and privileges applications. The governing board’s timing
       lapses are consistent with a finding identified in Clinton Hospital’s 1999 Joint
       Commission Preliminary Report. The Joint Commission found Clinton Hospital’s
       credentialing process to be in only “partial compliance” because the governing
       board took more than 90 days to act upon the hospital’s medical executive
       committee recommendations.

   •   The hospital did not have staff dedicated exclusively to the credentialing process.
       In July 2002, Clinton Hospital, for the first time in its history, hired a person
       under a job description that included credentialing duties. As credentialing
       coordinator, this person was responsible for performing all of the credentialing
       work for the hospital. However, the credentialing coordinator was also
       responsible for other primary duties as the hospital’s site manager and was unable
       to focus exclusively on the credentialing process.



                                             6
       Prior to July 2002, a temporary employee had performed the credentialing work
       for the hospital while concurrently performing duties as site manager, medical
       staff secretary, and, for periods of time, acting administrative officer. As a result
       of the temporary employee’s many duties, hospital officials admitted that the
       credentialing and privileging processes probably did not receive enough attention.
       According to hospital officials, Clinton Hospital has never had a full-time
       credentialing position because it does not have the funding.

Insufficient Assurance That Practitioners Had the Appropriate Qualifications and
Authorizations To Provide Patient Care

By not completing assessments of practitioners’ qualifications, competency, and
suitability to provide patient care, Clinton Hospital’s management was not fully assured
that its practitioners met standards necessary to provide patient care. While we did not
identify evidence to suggest that any of the hospital’s practitioners were not qualified or
suitable for Federal employment, we are concerned that an IHS-funded hospital with
weak controls for credentialing and privileging may not be able to sufficiently contribute
to the IHS mission of elevating the health status of American Indians and Alaska Natives.

RECOMMENDATIONS

We recommend that IHS ensure that Clinton Hospital’s management establishes a system
to routinely perform credentialing and privileging reviews. The hospital should:

   1. establish controls to complete credentialing and privileging reviews in a timely
      manner, such as a computerized credentialing system to track and monitor the
      status of its practitioners, and

   2. assign staff exclusively to perform the credentialing and privileging processes
      before the practitioners provide patient care.

AGENCY COMMENTS

In its November 1, 2004, written response to our draft report, IHS stated that it had taken
all recommended corrective actions for Clinton Hospital by:

   1. implementing a tracking system that incorporates a computerized tickler system
      for monitoring the status of all practitioners’ credentialing and privileging
      reviews, and

   2. realigning the duties of the credentialing coordinator to ensure that the
      credentialing and privileging processes are key responsibilities.

The IHS reported that, as of September 2004, Clinton Hospital was fully up to date in
processing and approving medical staff credentials and privileges. The complete text of
IHS’s response is included in the appendix.


                                             7
APPENDIX
APPENDIX A
  Page 1 of 2
APPENDIX A
  Page 2 of 2
